Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




      MEDICARE PART B
CHEMOTHERAPY ADMINISTRATION:
    PAYMENT AND POLICY




                      Daniel R. Levinson
                       Inspector General

                         June 2009
                       OEI-09-08-00190
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                   S U M M A R Y


                  OBJECTIVE
                  To determine whether Medicare paid appropriately for Part B services
                  billed as chemotherapy administration from 2005 to 2007.


                  BACKGROUND
                  Medicare Part B covers a limited number of outpatient prescription
                  drugs and pays separately for their administration. Among the drugs
                  covered by Part B are chemotherapy agents administered by injection or
                  infusion in a physician’s office. Physicians who administer drugs to
                  Medicare beneficiaries usually also purchase them and, therefore, bill
                  Medicare Part B for both the drug and its administration. Sometimes,
                  though, the drug the physician administers comes from another source,
                  such as free samples given to the physician or a pharmaceutical
                  company’s patient assistance program, and is not billed to Part B.

                  Medicare pays physicians about twice as much to administer
                  chemotherapy drugs as it does to administer nonchemotherapy drugs.
                  Medicare also pays the chemotherapy rate for administering certain
                  types of nonchemotherapy drugs with particularly complex preparation
                  and delivery issues. The Centers for Medicare & Medicaid Services
                  (CMS) does not specify which particular nonchemotherapy drugs qualify
                  for the chemotherapy rate (“qualifying drugs”), leaving that
                  determination to the carriers with which CMS contracts to process
                  Medicare Part B physician claims. Medicare paid $1.9 billion for
                  chemotherapy administration services between 2005 and 2007.

                  We used two main data sources in this evaluation. First, we conducted
                  structured interviews with and collected documents from appropriate
                  carrier staff about their policies. We also analyzed Medicare Part B
                  physician claims for services rendered and claimed between 2005 and
                  2007. To ensure a conservative estimate of inappropriate payments, we
                  defined a qualifying drug for our Part B analysis as any drug that any
                  carrier determined qualified for the chemotherapy administration rate.

                  We classified any chemotherapy administration claim that fell on a
                  service date on which no qualifying drug was billed as an unmatched
                  chemotherapy administration claim. We summarized unmatched
                  chemotherapy administration claims data to the physician level to
                  determine whether billing practices differed by specialty or claims
                  volume.


OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   i
E X E C U T I V E                       S U           M M A R Y



                   FINDINGS
                   Although unmatched claims exceeded $60 million from 2005 to
                   2007, Medicare data are insufficient to determine consistently
                   whether chemotherapy administration payments are appropriate.
                   We found that Medicare allowed $17.1 million for chemotherapy
                   administration claims on days on which no drug was billed and
                   $43.5 million for chemotherapy administration claims on days on which
                   only nonqualifying drugs were billed. We cannot determine definitively
                   whether these unmatched claims are truly inappropriate because we
                   cannot eliminate the possibility that providers administered qualifying
                   drugs but did not bill them to Medicare. Providers who submitted many
                   chemotherapy administration claims overall tended to submit fewer
                   unmatched claims as a percentage of their total.
                   Carriers have implemented inconsistent chemotherapy
                   administration coding policies and review procedures. Lacking a
                   national definition of “qualifying drug,” carriers have implemented their
                   own policies and sometimes disagree on whether a particular drug
                   qualifies for the higher administration rate. Two carriers have
                   implemented claims processing edits to ensure that they pay the
                   chemotherapy administration rate only for qualifying drugs; others say
                   such edits would trigger inappropriate denials of legitimate claims. Six
                   carriers have instead performed postpayment medical reviews that
                   included chemotherapy administration claims.


                   RECOMMENDATIONS
                   Although the $60.6 million that we identified in unmatched
                   chemotherapy administration claims is small compared to the
                   $1.9 billion Medicare paid for Part B chemotherapy administration from
                   2005 to 2007, potential program savings may nevertheless exist if CMS
                   can limit the use of chemotherapy administration codes to qualifying
                   drugs. Furthermore, CMS’s policy of letting carriers determine which
                   drugs qualify for billing with the chemotherapy administration codes
                   has led to inconsistencies in how much carriers pay for the
                   administration of certain drugs.

                   Therefore we recommend that CMS take the following actions:
                          •       establish a process to determine which specific drugs qualify
                                  for the chemotherapy administration payment rate,



 OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   ii
E X E C U T I V E                       S U           M M A R Y


                          •       instruct carriers that have not done so to consider a probe
                                  review of unmatched chemotherapy administration claims,
                                  and
                          •       ensure that drug administration claims are coded correctly
                                  and paid appropriately.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendation to instruct carriers to
                   consider probe reviews of chemotherapy administration claims, but did
                   not concur with the other three recommendations in our draft report.

                   CMS did not concur with our recommendation to clarify the criteria for
                   qualifying drugs, stating that the current CPT guidance “represents the
                   best consensus from the medical community and CMS.” CMS also
                   stated that it believes the current variation in carrier definitions of
                   qualifying drugs may be because of practice variations in the conditions
                   for which a drug is used and that this variation may decrease as a
                   consequence of contracting reform. We stand by our recommendation
                   that CMS clarify its policy, but have revised the recommendation in a
                   way that addresses practice variations.

                   CMS did not concur with our recommendation to use the current claims
                   infrastructure to capture information about drugs not billed to Part B or
                   our recommendation to develop edits to ensure that drug administration
                   codes are billed correctly because it believes the implementation costs
                   would exceed any benefit. Because our findings show that program
                   savings may be achieved if CMS can ensure that chemotherapy
                   administration codes are used appropriately, we stand by the intent of
                   our original recommendations. However, we have amended them to
                   defer to CMS’s judgment on the specific actions best suited to
                   accomplish this goal.




 OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .................................... i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 8
                   Although unmatched claims exceeded $60 million from
                   2005 to 2007, Medicare data are insufficient to determine
                   consistently whether chemotherapy administration payments
                   are appropriate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                   Carriers have implemented inconsistent chemotherapy
                   administration coding policies and review procedures . . . . . . . . . . 9


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                   Agency Comments and Office of Inspector General Response . . . 12


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                   A: Methodology Notes and Limitations . . . . . . . . . . . . . . . . . . . . . 14

                   B: Complete List of Drugs With Conflicting
                      Qualifying Determinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Δ   I N T R O D U C T I O N




                  OBJECTIVE
                  To determine whether Medicare paid appropriately for Part B services
                  billed as chemotherapy administration from 2005 to 2007.


                  BACKGROUND
                  Medicare Part B Drugs and Drug Administration Coverage
                  Medicare Part B covers a limited number of outpatient prescription
                  drugs, including those that are furnished as an integral part of a
                  physician’s service and are not usually self-administered. Examples of
                  Part B drugs include the cancer chemotherapy drug doxorubicin (brand
                  name Adriamycin), the anemia drug darbepoetin alfa (Aranesp), and the
                  estrogen replacement estradiol valerate (Delestrogen). According to the
                  Centers for Medicare & Medicaid Services’ (CMS) statistics, Medicare
                  allowed about $2.4 billion for chemotherapy drugs and $7.4 billion for
                  nonchemotherapy drugs in 2006. 1
                  In addition to covering certain drugs, Medicare Part B pays for the
                  administration of covered drugs as a separate service. The American
                  Medical Association’s (AMA) Current Procedural Terminology (CPT)
                  contains the billing codes that physicians use to identify drug
                  administration services when submitting claims to Medicare. Each
                  drug administration CPT code identifies both the type of the drug
                  delivered and the route of administration used. The CPT divides
                  administration codes into three broad categories by drug type:
                  (1) hydration; (2) therapeutic, prophylactic, and diagnostic injections
                  and infusions; and (3) chemotherapy administration. Each drug type
                  category lists several codes that describe different routes of
                  administration, and some routes appear in multiple categories. For
                  example, three codes describe the first hour of intravenous
                  infusion—one for infusing a hydration solution, one for infusing a
                  nonchemotherapy drug, and one for infusing a chemotherapy drug.
                  Office of Inspector General (OIG) analysis of billing data shows that
                  from 2005 to 2007, Medicare allowed about $1.9 billion for drug


                      1 Drug type as defined by Berenson-Eggers Type of Service. Source: CMS, “Medicare
                  Part B Physician/Supplier Data by BETOS: Calendar Year 2006.” Available online at
                  http://www.cms.hhs.gov/MedicareFeeforSvcPartsAB/Downloads/BETOS06.pdf. Accessed on
                  September 17, 2008.



OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   1
I N T R O D           U C T            I O N


                       administration codes from the chemotherapy category (“chemotherapy
                       administration codes”) and $1.4 billion for drug administration codes
                       from the other categories (“nonchemotherapy administration codes”).

                       Regardless of the route of administration, Medicare reimbursement is
                       consistently higher for chemotherapy administration codes than for
                       nonchemotherapy administration codes (see Table 1). For example, in
                       2008 Medicare allowed, on average, $161.49 for the first hour of
                       intravenous chemotherapy infusion (plus payment for the drug itself).
                       By contrast, Medicare would allow $73.89 for the same service if it
                       involved a nonchemotherapy drug and $60.56 if it involved a hydration
                       solution. According to the 2008 CPT Manual, “ . . . chemotherapy
                       services require advanced practice training and competency for staff . . .
                       special considerations for preparation, dosage, or disposal; and . . .
                       entail significant patient risk and frequent monitoring.” 2

            TABLE 1                                                                                          Type of Drug Administered
Medicare Pays More
                                                                                                                     Nonchemotherapy        Chemotherapy
  for Administering           Route of Administration
                                                                                 Hydration Solution                             Drug                Drug
Chemotherapy Than
                             Initial intravenous infusion,
    for Other Drugs                                                                               $ 60.56                         $ 73.89       $ 161.49
                             up to 1 hour

                             Initial intravenous infusion,
                                                                                                  $ 18.28                         $ 23.61        $ 36.18
                             each additional hour

                             Sequential intravenous
                                                                                                            -                     $ 38.09        $ 79.60
                             infusion

                             Initial intravenous push                                                       -                     $ 57.89       $ 119.21

                             Sequential intravenous push                                                    -                     $ 25.52        $ 68.18

                          Source: Fee schedule lookup function on www.cms.hhs.gov. National payment amounts for 2008.


                       Medicare Part B Drug Administration Billing
                       Physicians submit claims for drugs and drug administration to entities
                       called carriers with which CMS contracts to process Medicare Part B
                       physician claims. 3 To request reimbursement for a Medicare service,


                           2 AMA, “Current Procedural Terminology 2008 Professional Edition,” 2007, p. 424.
                           3 Starting in March 2007, CMS began shifting Part B claims processing responsibility to
                       Part A/Part B Medicare Administrative Contractors as part of major contracting reform
                       mandated by the Medicare Prescription Drug, Improvement, and Modernization Act of
                       2003, P.L. No. 108-173 § 911, Social Security Act, § 1874A, 42 U.S.C. § 1395kk-1. Because
                       carriers were the primary contractor type throughout our study period from 2005 to 2007,
                       we will use the term “carrier” to refer to both types of Part B contractor throughout this
                       report.



   OEI-09-08-00190     M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY                   2
I N T R O D        U C T            I O N


                    the physician submits to the carrier a standard paper or electronic claim
                    form that contains information about the services performed. The
                    carrier then passes the claim through a series of automated edits that
                    verify that the claim is complete and meets Medicare coverage
                    guidelines. Then the carrier calculates the correct reimbursement for
                    the services claimed and issues payment to the physician. Most claims
                    pass through this system rapidly, but edits sometimes trigger claim
                    denials or flag claims for manual review by carrier staff.

                    Physicians who administer drugs to Medicare beneficiaries usually also
                    purchase them and, therefore, bill Medicare Part B for both the drug
                    and its administration. Several situations exist, however, in which
                    Part B would receive a bill for the administration service but not the
                    drug itself. For example, some Medicare Part D plans cover drugs also
                    payable under Part B—if the beneficiary gets a drug through Part D,
                    the plan submits data to the Part D contractor, not to the carrier.
                    Alternatively, a pharmaceutical company may provide drugs at no cost
                    as free samples, as part of a clinical trial, or under a patient assistance
                    program. In this case, the physician would bill Part B for the
                    administration service, but no claim for the drug would go to any
                    segment of Medicare. Although the physician attaches a modifier to the
                    administration claim to indicate that the service is part of a clinical
                    trial, no such modifier exists to indicate if a drug comes from another
                    source not billed to Medicare. 4
                    Medicare Chemotherapy Administration Policy
                    Prior to January 1, 2005, Medicare allowed physicians to use the
                    chemotherapy administration codes only to report the delivery of
                    antineoplastic agents for cancer treatment. 5 In December 2004, CMS
                    issued Change Request (CR) 3631, which instructed carriers to allow
                    the chemotherapy codes for “ . . . parenteral administration of
                    nonradionuclide anti-neoplastic drugs; and also to anti-neoplastic
                    agents provided for treatment of noncancer diagnoses (e.g.,
                    cyclophosphamide for auto-immune conditions) or to substances such as
                    monoclonal antibody agents, and other biologic response modifiers.”
                    The new policy reflected changes to the CPT drug administration

                        4 Physicians who participate in CMS’s Competitive Acquisition Program (CAP) obtain

                    drugs from CAP vendors, in which case the vendor submits the Part B drug claim to the
                    carrier for payment. The physician also identifies the drugs on the administration claim
                    but attaches a modifier that indicates that payment for them should go to the CAP vendor.
                        5 Antineoplastic drugs inhibit the growth of cancer cells.




 OEI-09-08-00190    M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   3
I N T R O D        U C T            I O N


                    categories that the AMA adopted in late 2004 but did not publish until
                    the 2006 edition of the CPT manual. Hereinafter, we will refer to any
                    drug that meets the CR 3631 criteria as a “qualifying drug.”

                    CMS did not identify specific qualifying drugs in CR 3631, stating, “[a]t
                    this time, CMS is not developing a national list of approved
                    chemotherapy drugs. CMS will allow each Medicare carrier to develop
                    such a list.” As of September 2008, the “Medicare Claims Processing
                    Manual” lists several examples of qualifying drugs but states, “[t]he
                    drugs cited are not intended to be a complete list of drugs that may be
                    administered using the chemotherapy administration codes. Local
                    carriers may provide additional guidance as to which drugs may be
                    considered to be chemotherapy drugs under Medicare.” 6 CMS does not
                    require, however, that carriers develop such guidance, nor does it
                    require that carriers develop systems to ensure that chemotherapy
                    administration codes are used only with qualifying drugs. According to
                    the 2008 CPT Manual, chemotherapy administration codes should be
                    reserved for drugs that “ . . . [require] physician work and/or clinical
                    staff monitoring well beyond that of therapeutic drug agents [i.e., those
                    billed with the nonchemotherapy administration codes]. . . .” 7
                    Previous Work
                    Previous analyses suggest that physicians sometimes misuse the
                    chemotherapy administration codes. The Medicare Payment Advisory
                    Commission (MedPAC) noted in a January 2006 report to Congress that
                    many of the Medicare claims for chemotherapy administration that it
                    reviewed did not have an accompanying drug claim. MedPAC also
                    found that although Medicare payments for drug administration
                    increased 217 percent from 2003 to 2004, payments for drugs increased
                    only 10 percent. 8
                    During preinspection for this study, we analyzed a 1-percent sample of
                    CMS’s Part B Carrier 100 Percent National Claims History Line Item
                    file for 2005. We found that Medicare allowed approximately
                    $33 million that year for chemotherapy administration claims without a
                    corresponding claim for a qualifying drug for the same day of service.



                        6 CMS, “Medicare Claims Processing Manual,” Pub. No. 100-04, ch. 12, § 30.5.
                        7 AMA, “Current Procedural Terminology 2008 Professional Edition,” 2007, p. 424.
                      8 MedPAC, “Report to the Congress: Effects of Medicare Payment Changes on Oncology
                    Services,” January 2006.



 OEI-09-08-00190    M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   4
I N T R O D        U C T            I O N



                    METHODOLOGY
                    We used two main data sources to develop the findings for this
                    evaluation. To determine how Medicare carriers implemented CR 3631,
                    we conducted structured interviews with appropriate staff from each
                    carrier about its policies on the use of chemotherapy administration
                    codes. We also collected and reviewed relevant documents from each
                    carrier. We then applied the carrier policies to Medicare Part B claims
                    data to determine whether providers used the codes appropriately.
                    Carrier Policy Analysis
                    We used publicly available CMS data sources to identify the 15 carriers
                    that processed Medicare Part B claims between 2005 and 2007. We
                    asked each carrier, by telephone and/or e-mail, about its
                    implementation of CR 3631, its list (if any) of qualifying drugs, what
                    guidance it had offered Medicare providers, and the results of any
                    reviews of chemotherapy administration. We obtained documentation
                    of these policies and reviews from the carriers and from CMS’s Medicare
                    Coverage Database, an online compendium of contractor policies. Ten
                    carriers that were in operation between 2005 and 2007 no longer hold
                    Medicare contracts or have changed jurisdictions; in these cases, we
                    obtained information about the prior carriers’ policies from the current
                    contractor and from the Medicare Coverage Database.

                    We reviewed the carrier information to determine which drugs each
                    carrier considered as qualifying. 9 We then combined the carriers’
                    individual determinations to create an overall list of qualifying drugs for
                    use in our claims analysis. To ensure a conservative estimate of
                    inappropriate payments, we included a drug on this list if any carrier
                    had determined that it qualified for the chemotherapy administration
                    codes. We did not evaluate the appropriateness of the carriers’
                    determinations.
                    Medicare Claims Analysis
                    We systematically analyzed the Part B Carrier 100 Percent National
                    Claims History Line Item files for services rendered and claimed
                    between 2005 and 2007 to determine the incidence of chemotherapy
                    administration coding errors. We first identified all drug claims and

                        9 One carrier had a policy that defined certain categories of drugs as qualifying or
                    nonqualifying rather than identifying specific drugs by name. We used the national drug
                    code listing and manufacturer and various medical resource Web sites to identify specific
                    drugs in the categories defined by this carrier.



 OEI-09-08-00190    M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   5
I N T R O D        U C T            I O N


                    drug administration claims in the Part B files. 10 We then counted the
                    number of qualifying drug claims, nonqualifying drug claims,
                    chemotherapy administration claims, and nonchemotherapy
                    administration claims per beneficiary and service date. We then
                    matched this summary service date information back to the drug and
                    drug administration claims data. We classified any chemotherapy
                    administration claim that fell on a service date on which no qualifying
                    drug was billed as an unmatched chemotherapy administration claim.

                    To refine our analysis, we then sought to identify and eliminate
                    unmatched claims that most likely appropriately described the
                    administration of qualifying drugs that were not themselves billed to
                    Part B. First, we eliminated claims that fell on service dates on which
                    billed modifiers indicated that the beneficiary was enrolled in a clinical
                    trial. We found 36,054 unmatched claims that occurred while the
                    beneficiary was part of a clinical trial (see notes on clinical trials in
                    Appendix A). Although Medicare data do not identify what drugs were
                    provided to the beneficiary in the clinical trial, we assumed they were
                    qualifying drugs and that the chemotherapy administration service was
                    therefore billed appropriately. We then cross-referenced the remaining
                    unmatched claims to Medicare Part D prescription drug event data to
                    determine whether the claim could represent the administration of a
                    Part D drug. Only one unmatched claim fell on a date on which the
                    beneficiary had a supply of drugs paid for by Part D 11 (see notes on the
                    Part D match in Appendix A). We could not further refine our analysis
                    because we found no data source that indicated whether beneficiaries
                    obtained drugs from sources not billed to Medicare (see “Findings”).
                    Nevertheless, we summarized unmatched chemotherapy administration
                    claims data at the physician level to determine whether billing practices
                    differed by specialty or claims volume.




                       10 We limited our analysis to drug administration codes describing injections and
                    intravenous infusions because they appear in both the chemotherapy and nonchemotherapy
                    CPT drug administration code categories. These services account for 99 percent of the
                    chemotherapy administration services billed from 2005 to 2007.
                        11 We analyzed Part D prescription drug event data for January through June 2006.
                    Because we found only one matching qualifying drug, we did not pursue the Part D analysis
                    for other time periods.



 OEI-09-08-00190    M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   6
I N T R O D        U C T            I O N


                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency (now
                    Council of the Inspectors General on Integrity and Efficiency).




 OEI-09-08-00190    M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   7
       Δ        F I N D I N G S



  Although unmatched claims exceeded $60 million                          Based on our analysis, Medicare
from 2005 to 2007, Medicare data are insufficient to                      allowed $60.6 million for unmatched
     determine consistently whether chemotherapy                          chemotherapy administration claims
          administration payments are appropriate                         from 2005 to 2007. We classified any
                                                                          chemotherapy administration claim
                                   that fell on a service date on which no qualifying drug was billed as an
                                   unmatched chemotherapy administration claim. Approximately
                                   $700,000 of this amount derives from situations in which the provider
                                   billed a qualifying drug claim either the day before or day after the
                                   unmatched administration claim. Of the remainder, $17.1 million was
                                                                             allowed on days on which no drug
                    Table 2: Nonqualifying Drugs Frequently
                                                                             was billed, and $43.5 million was
                    Appearing With Unmatched Chemotherapy
                                                                             allowed on days on which only
                    Administration Claims
                                                                             nonqualifying drugs were billed.
                                                Percentage of Unmatched
                                                                             Table 2 shows the drugs that
                    Drug                           Administration Claims     providers most commonly billed with
                    Hydration Solutions                        27 percent    unmatched administration claims of
                    Heparin Sodium                              8 percent    the latter category.
                    Epoetin Alfa
                                                                                    Payments for unmatched
                                                                                    8 percent
                    Dexamethasone                                                   chemotherapy administration claims
                                                                                    7 percent
                    Zoledronic Acid                                      7 percent  were widespread, but their incidence
                    Darbepoetin Alfa                                     5 percent  varied significantly by provider.
                  Source: OIG analysis of Medicare Part B data for 2005-2007, 2008. Many chemotherapy providers,
                                                                                    about 44 percent, submitted at least
                                    one unmatched chemotherapy administration claim, but such claims
                                    generally accounted for a small portion of their total chemotherapy
                                    administration billings. Providers with many chemotherapy
                                    administration claims tended to bill fewer unmatched claims as a
                                    percentage of their total than those who submitted fewer chemotherapy
                                    administration claims. Oncologists and urologists also tended to bill
                                    fewer unmatched claims as a percentage of their total than providers of
                                    other specialties.
                                   Because claims data do not capture sufficient information, we cannot
                                   determine whether these unmatched claims are truly inappropriate.
                                   Specifically, Part B data do not identify drugs that are not billed to the
                                   program even when their administration is billed to Part B. Therefore,
                                   we cannot definitively conclude that unmatched chemotherapy
                                   administration claims do not represent the appropriately billed delivery


            OEI-09-08-00190        M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   8
       F      I N D I N G             S


                                     of qualifying drugs themselves not billed to Part B. Without record
                                     review, which was not part of our methodology, we also cannot
                                     determine if an unmatched claim represents a billing error or omission.
                                     CMS and its carriers are bound by these same limitations.



                Carriers have implemented inconsistent                     Some carriers used the flexibility
                  chemotherapy administration coding                       granted in CR 3631 to develop
                                                                           individual policies for chemotherapy
                         policies and review procedures
                                                                           administration coding. All
                                     15 carriers implemented CMS’s policy expanding the application of the
                                     chemotherapy administration codes, and all communicated their policy
                                     to the provider community through bulletins, newsletters, provider
                                     meetings, and other vehicles or posted information on their Web sites.
                                     However, only four carriers developed comprehensive lists of all drugs
                                     and corresponding billing codes considered appropriate for use with the
                                     chemotherapy administration codes. Nine more created partial lists or
                                     classified particular drugs on a case-by-case basis, most often
                                     luteinizing hormone-releasing hormone analogs, which are used to treat
                                     prostate cancer. The remaining two have not specified any drugs that
                                     should be billed with particular administration codes. In one case,
                                     carrier officials elected not to create a list because they could not
                                     determine what drugs should be considered “biological response
                                     modifiers,” one category of qualifying drug identified in CR 3631.
                                                                                           Carriers that made qualifying determinations
  Table 3: Top Drugs With Conflicting Carrier                                              sometimes disagreed on particular drugs. We
  Qualifying Determinations                                                                identified 33 drugs that at least one carrier
                                 Qualifying               Nonqualifying                    defined as qualifying and at least one other
 Drug (Generic Name)        Determinations               Determinations                    carrier defined as nonqualifying. Table 3
                            (No. of carriers)            (No. of carriers)
                                                                                           shows the six most commonly billed drugs that
 Leucovorin Calcium                          1                                 5           have conflicting definitions; the full list can be
 Filgrastim                                  2                                 4
                                                                                           found in Appendix B.
 Pegfilgrastim                               2                                 5
 Sargramostim                                1                   Some carriers have implemented claims
                                                                               5
 Triptorelin Pamoate                           2           2     processing edits or conducted reviews to
 Interferon Beta 1-a                           3           1     ensure correct billing of chemotherapy
Source: OIG analysis of Medicare carrier policies, 2008.         administration codes, but others have
                                                                 encountered difficulties or have focused on
                                       other priorities. Two carriers use claims processing edits that check for
                                       the presence of a qualifying drug claim before paying a chemotherapy
                                       administration claim. Several other carriers considered implementing

              OEI-09-08-00190        M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   9
F   I N D I N G        S


                      edits but ultimately did not because they believed that the edits would
                      result in inappropriate denials when qualifying drugs were delivered
                      but not billed to Medicare. Instead of edits, six carriers conducted
                      postpayment medical reviews that included chemotherapy
                      administration claims. Four of these carriers found instances in which
                      providers used chemotherapy administration codes for nonqualifying
                      drugs. Two other carriers have reviewed their administrative data and
                      determined that chemotherapy administration coding does not appear
                      to be problematic.




    OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   10
Δ   R E C O M M E N D A T I O N S




                  Compared to the overall $1.9 billion Medicare paid for Part B
                  chemotherapy administration from 2005 to 2007, the $60.6 million in
                  unmatched claims is relatively small. Nevertheless, potential program
                  savings may exist if CMS can limit the use of chemotherapy
                  administration codes to qualifying drugs. Furthermore, CMS’s policy of
                  letting carriers determine which drugs qualify for billing with the
                  chemotherapy administration codes has led to inconsistencies in how
                  much carriers pay for the administration of certain drugs.

                  Therefore, we recommend that CMS take the following actions:
                  Establish a Process to Determine Which Specific Drugs Qualify for the
                  Chemotherapy Administration Payment Rate
                  Some carriers have found the language in CR 3631 defining qualifying
                  drugs to be overly broad, especially the term “biologic response
                  modifiers.” As a result, carriers disagree on the drugs for which they
                  allow the chemotherapy administration codes to be billed. While CMS
                  believes that this variation may be an appropriate result of unique
                  practices of large cancer centers, we note that no carrier defined
                  qualifying drugs in terms of the clinical conditions or patient population
                  for which the drug is used. Nevertheless, we recognize that a drug’s
                  risk for adverse reaction may depend on such factors. Therefore, CMS
                  should establish a process to determine if a given drug, under any
                  reasonable circumstance, meets the CR 3631 definition of a qualifying
                  drug. CMS should consult with the carriers and appropriate medical
                  experts in developing this process. Once finalized, the process should be
                  used to classify existing drugs as well as new drugs when they come to
                  market. If a drug meets the qualifying criteria only under unique
                  circumstances, CMS should instruct providers to bill, and carriers to
                  allow, the chemotherapy administration rate only when those conditions
                  are met.
                  Instruct Carriers That Have Not Done So To Consider a Probe Review of
                  Unmatched Chemotherapy Administration Claims
                  The carriers that have reviewed chemotherapy administration coding
                  have found numerous billing errors. CMS should instruct those carriers
                  that have not conducted such a review to evaluate whether doing so
                  would provide a favorable return on investment.



OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   11
R   E C O        M M E N D A T                         I O N              S


                      Ensure That Drug Administration Claims Are Coded Correctly and Paid
                      Appropriately
                      Medicare Part B claims currently lack information needed to determine
                      whether the correct administration code is used to bill for delivering a
                      drug covered by Part B. However, our review suggests that ensuring
                      that chemotherapy administration claims are appropriately coded could
                      result in program savings. Therefore, we recommend that CMS take
                      steps to ensure that drug administration claims are coded correctly and
                      paid appropriately.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our recommendation to instruct carriers to
                      consider probe reviews of unmatched chemotherapy administration
                      claims, but did not concur with the other three recommendations in our
                      draft report. The full text of our original recommendations and CMS’s
                      comments is provided in Appendix C.

                      In our draft report, we recommended that CMS clearly define the
                      criteria for qualifying drugs. CMS did not concur with our
                      recommendation, stating that the current CPT guidance “represents the
                      best consensus from the medical community and CMS.” CMS also
                      stated that it believes the current variation in carrier definitions of
                      qualifying drugs may be because of regional practice variations in the
                      conditions for which a drug is used and that this variation may decrease
                      as a consequence of contracting reform. We stand by our
                      recommendation that CMS clarify its policy, but have revised the
                      recommendation in a way that addresses practice variations.

                      CMS concurred with our recommendation that carriers should consider
                      probe reviews of chemotherapy administration claims if they have not
                      already done so. CMS stated that it will instruct carriers that have not
                      conducted probe reviews to evaluate whether doing so is appropriate.
                      CMS further stated the Recovery Audit Contractors may be interested
                      in this area.

                      In our draft report, we recommended that CMS ensure that the
                      chemotherapy administration rate is paid only for appropriate drugs by
                      using existing claims infrastructure to capture information about drugs
                      not billed to Part B and instructing carriers to implement related
                      system edits. CMS did not concur with these recommendations, stating
                      that establishing a system to capture the required information would be

    OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   12
R   E C O        M M E N D A T                         I O N              S


                      cost prohibitive and that edits were not appropriate because of provider
                      practice variations. Nevertheless, our findings show that program
                      savings may be achieved if CMS can ensure that chemotherapy
                      administration codes are used appropriately. Therefore, we stand by
                      the intent of our original recommendations, to ensure that drug
                      administration claims are coded correctly and paid appropriately, but
                      have replaced the two specific recommendations with a broader
                      recommendation that defers to CMS’s judgment on the specific actions
                      best suited to accomplish this goal.




    OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   13
Δ   A P P E N D I X                               ~           A

                  METHODOLOGY NOTES AND LIMITATIONS
                  Note on Clinical Trials
                  We considered a beneficiary to be in a clinical trial at the time of an
                  unmatched chemotherapy administration claim as follows. We first
                  identified all beneficiaries who had at least one drug or drug
                  administration claim that carried a clinical trial billing modifier. For
                  each such beneficiary, we then determined the earliest and latest
                  service dates on which a clinical modifier appeared. Next, we defined
                  the clinical trial date range as the span between the earliest and latest
                  dates or, if that span was less than 60 days, between the earliest date
                  and a date 60 days hence. If an unmatched chemotherapy
                  administration claim fell into the clinical trial date range, we considered
                  the beneficiary to be in a clinical trial on that date.
                  Note on Part D Match
                  Part D prescription drug event data include a start date for the
                  prescription and the number of days’ supply covered by the claim. If the
                  service date of an unmatched chemotherapy administration claim fell
                  inside the window between the start date and the end of the supply, we
                  considered the beneficiary on the claim to be receiving the Part D drug
                  on the date of the unmatched claim. In total, 64 unmatched claims fell
                  into a Part D window. Of the Part D drugs paid for at the time of these
                  unmatched claims, 1 was an injectable antineoplastic, 1 was an
                  injectable antiemetic, 2 were other injectable drugs, 1 was a topical
                  anti-inflammatory, 7 were oral anticancer medications, and 52 were
                  other oral medications.
                  Note on Limitations
                  Providers bill Medicare Part B separately for drugs and their
                  administration and do not identify which administration line item
                  pertains to which drug line item on a claim. Therefore, unless a
                  provider bills on only one drug and one administration for a particular
                  beneficiary and service date, no one can definitively determine which
                  administration code is intended to go with which drug code. Because of
                  this uncertainty and to ensure a conservative estimate, we defined
                  unmatched chemotherapy administration claims as only those where no
                  claim for a qualifying drug appeared for the same service date. In
                  reality, there almost certainly exist additional unmatched
                  chemotherapy administration claims on service dates where a provider
                  billed only chemotherapy administration but also billed both qualifying
                  and nonqualifying drugs on a particular date of service. Without


OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   14
A   P   P E N D       I X            ~          A


                      attempting to determine what portion is for unmatched chemotherapy
                      administration claims, we note that Medicare Part B allowed
                      $219 million for chemotherapy administration on service dates on which
                      only chemotherapy administration codes, but both qualifying and
                      nonqualifying drugs, were billed.




    OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   15
Δ            A P P E N D I X                                    ~            B


Complete List of Drugs With Conflicting Qualifying Determinations

                                                     Qualifying                  Nonqualifying                        Number of                                                    Qualifying      Nonqualifying       Number of
                                               Determinations                  Determinations                         Line Items                                             Determinations      Determinations        Line Items
Drug (Generic Name)                            (No. of carriers)               (No. of carriers)                    (2005–2007)               Drug (Generic Name)            (No. of carriers)   (No. of carriers)   (2005–2007)

Abatacept                                                              2                               3                     50,307           Filgrastim (300 mcg/ 480mcg)                  2                   4      1,474,819

Abciximab                                                              2                               3                       1,303          Interferon Beta 1-a                           3                   1       187,173

Alefacept                                                              2                               3                     14,640           Leucovorin Calcium                            1                   5       945,803

Antithymocyte Globulin, Rabbit                                         1                               4                               80     Leuprolide Acetate                            4                   4          3,902

Basiliximab                                                            2                               3                               4      Mesna                                         5                   1         27,453

Cyclosporine, parenteral                                               1                               3                               1      Natalizumab                                   5                   1         14,610

Daclizumab                                                             2                               3                          211         Octreotide                                    1                   5       112,912

Decitabine                                                             4                               3                     36,211           Omalizumab                                    3                   3         77,066

Depo-Estradiol Cypionate                                               1                               3                   151,412            Oprelvekin                                    2                   4         69,198

Digoxin Immune Fab (Ovine)                                             1                               3                               0      Palifermin                                    1                   3            170

Eculizumab                                                             3                               3                               0      Pegaptanib Sodium                             1                   3       112,102

Elliott’s B Solution                                                   3                               1                               9      Pegfilgrastim                                 2                   5       736,271

Estradiol Valerate (10 mg/20 mg)                                       2                               2                     39,193           Pentastarch 10 % Solution                     1                   3              0

Estradiol Valerate (40 mg)                                             1                               3                     48,515           Sargramostim                                  1                   5       278,325

Estrogen Conjugate                                                     2                               2                               0      Tacrolimus                                    1                   3             65

Estrone                                                                2                               2                       6,119          Trimetrexate Glucoronate                      1                   3            457

Etanercept                                                             1                               4                               35     Triptorelin Pamoate                           7                   1       189,159
Source: Office of Inspector General analysis of Medicare carrier policies, 2008.




               OEI-09-08-00190             M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY                                                            16
Δ    A P P E N D I X                                    ~           C

                                 AGENCY COMMENTS




Cl      DEPARTMENT OF HEALTH & I-IUMAN SERVICES

                                                                         or.rr".' "




    TO:            Daniel R. Levinson
                   Inspector Genera! _

    FROM:
                CA,~...dY'i
                 Charlene Frizzera
                                   " ...... ~
                   ACling Administrator

    SUBJECf:       Office of Inspector General's Draft Report: "Medicare Part B Chemotherapy
                   Administration: Payment and Policy" (OEl-09-0g·00 190)


    Thank you for the opportunity to review and comment on the Office of Inspector General's
    (DIG) draft report entitled. "Medicare Part B Chemotherapy Administration: Payment and
    Policy." The DIG report addresses the appropriateness of Medicare payments for Part B services
    billed as chemotherapy administmtion from 2005 to 2007.

    10c Centers for Medicare & Medicaid Services (eMS) closely follows lhe CtJITent Procedural
    Tenninology (eP'l) guidelines set forth by the American Medical Associlltion (AMA) in
    determining whether the adminislration of a drug is billed using the chemotherapy codes or
    billed using thc therapeutic, prophylactiC; or diagnostic injection or infusion codes. Under CPT
    guidelines and as stated in the Internet Only Manual Claims I'rocessing Manual, Chaptcr 12.
    Section 30.5, the chemotherapy administration codes apply to parenteral administration of non-
    radionuclide anti-nl.:oplastic drugs; and also to anti-neoplastic agents provided for treatnlcnt of
    noncanccr diagnoses (e.g., cyclophosphamide for auto-immune conditions) or to substances such
    as monoclonal antibody agents, and other biologic response modifiers.

    The following drugs arc commonly considered to f311 under the category of monoclonal
    nntibodies: infiiximab. rituximab, alemtuzumb. gemtuzumab. and tTllStuzumab. Drugs
    commonly considered to fall under the category of honnonal antj-ncoplastics include leuprolide
    acctate and goscrelin acetate. 1be drogs cited an: not intended to be a complete list but an:
    intended as examples to be used as guidance for determining the types of drugs that should be
    administered using the chemo1hcrapy administralion codes.

    DIG R«ommendalion

    The CMS should clearly defillC the criteria for qualifying drugs. Specifically. the DIG states that
    a panicular drug should OOt be considered qualified to be reponed with chemotherapy
    administration CI'T codes in one jurisdiction bUI not in another.




 OEI-09-08-00190        M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   17
A   P    P E N D          I X              ~           C




        Page 2 - Daniel R. Levinson


        eMS RC!loonse

        Although we appreciate the efforts of the OIG and the information it has collected and analyzed,
        we do not concur with this recommcllClation. The CPT guidelines that address this issue were
        developed by a special workgroup established by the AMA, which had CMS participation and
        input, and as requested by CMS pursuant to Section 303(a) of the Medicare Prescription Drug,
        Improvement, and Modernization Aet of2oo3. The workgroup's recommendations were
        carefully reviewed and revised by the CPT Editorial Panel. At this time, CPT guidance
        represents the best consensus from the medical community and CMS regarding the appropriate
        CPT codes for reporting the administration of different types of drugs.
        lbis variation noted by the OIG may result from certain charncteristics of oncology practices that
        differ across jurisdictions. Large specialty cancer centers are unevenly distributed across the
        United States and the use of certain cancer drugs for certain clinical conditions or patienl
        populations may be unique to these center.;.

        This variation may decrease as we reduce the number of Medicare contractors processing
        chemotherapy administration claims by moving to fully implement Medicare contracting reform.
        which will result in 15 Medicare Administrative Contractors (MAGs) in operation. We will
        encourage Medicare contractor medical officers to continue to communicate with one another as
        they develop policies regarding drugs whose administration should be reported with
        chemcllherapy admi.niscration CPT codes SO thal this variation may be minimized in the future as
        appropriate.

        DIG Recommendation

        The CMS should instruct camers that have not done so to consider a probe review ofurunatched
        chemotherapy administration claims.

        eMS RC!lllonse

        We concur with the recommendation. CMS will instruct contractors that have not conducted
        probe reviews of unmatched chemotherapy administration claims that they should evaluate
        whether doing so is the most appropriate action consistent with their individual prioritized
        strategy. Recovery Audit Contractors may also be interested in conducting reviews in this area.

        DIG RecommtrtdUion

        The CMS should use existing claims infrastructure to capture information about drugs not billed
        to Part B.




    OEI-09-08-00190         M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   18
A   P   P E N D           I X              ~           C




        Page 3 - Daniel R. Levinson


        eMS Response

        We do not concur with this recommendation. A special system was developed to allow the
        submission of "no pay" claims for the Competitive Acquisition Program (CAP) for
        Part B Drugs and Biologicals that cannot be used for other purposes without significanl
        modification. At this time we believe the expense ofdeveloping a similar system for Ihis
        purpose would outweigh any benefit.

        OIG Recommendation

        The eMS should direct Carriers to implement claims processing edits that verify that drug
        administrntion codes are appropriate for the drugs delivered.

        CMS Response

        We do not concur with this recommendation. As ....'C stated above., we believe the CPT guidance
        represents the best consensus from the medical community and CMS regarding the appropriate
        CPT codes for reponing the administmtion of different types ofdrugs. For the reasons described
        elsewhere in this response letter, we do not believe it is appropriate at this time to develop edits
        to ensure that specific drugs are billed with specific drug administration codes.

        We thank the OIG for your effons regarding this stUdy. We look forward to working with you as
        we proceed to address payment policies for chemotherapy administration, and are commilled to
        ensuring high quality care for those Medicare beneficiaries affected by these policies.




    OEI-09-08-00190         M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   19
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Timothy S. Brady,
                  Regional Inspector General for Evaluation and Inspections in the
                  San Francisco regional office, and Deborah W. Harvey, Deputy Regional
                  Inspector General.

                  Scott Hutchison served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  San Francisco regional office who contributed to the report include
                  Veronica Gonzalez, Christina Lester, and China Tantameng; central
                  office staff who contributed include Kevin Manley.




OEI-09-08-00190   M E D I C A R E PA R T B C H E M O T H E R A P Y A D M I N I S T R AT I O N : PAY M E N T   AND   POLICY   20
